                                                                         OSD0a7
                              A d d e n d u m t o Closeout of ~97010003/~q8


    This case was originally closed on October 3, 1997 (see attached). The
complainant subsequently informed OIG that both the subject's and complainant's
draft manuscripts had been published as conference proceedings and provided us
with copies. The complainant requested we re-open this case to analyze allegations
(a) and (b) in light of the fact that the manuscripts were published.
    Allegation (a), intellectual theft, was based on the subject's use of one particular,
common term (the term) in the title of her manuscript and a one paragraph
explanation of the technical meaning of a few specific words i n the text of the
manuscript. The complainant alleged that the subject's explanation and use of the
technical words was intellectual theft because the subject did not use that term in
her manuscript, and that its inclusion arose only because the subject appropriated
it from a theory the complainant had developed.
    There was no evidence that the subject took ideas or text from the complainant's
draft manuscript; indeed, most of the terminology is common to the field in which
the subject has published, and the specific technical aspects could derive from the
subject's research in that field. Thus, we had originally concluded there was
nothing in the subject's draft manuscript that was unique to the complainant's
manuscript. Nevertheless, we asked a scientist1 in the field for his opinion of the
alleged intellectual theft in the subject's published paper. He stated the subject's
use of the term in the title of her paper was unusual in that it appeared unrelated
to what was described in the paper. The scientist stated that the few references to
the term in the subject's paper were completely unrelated to the use of the same
term in the complainant's manuscript. Regarding the methodology of the two
manuscripts, the complainant's manuscript relied on a technique that the subject's
paper did not use. The scientist added that one could not conclude that such a
common term had been plagiarized without further connection in its use in the two
manuscripts. As the scientist found, there was no apparent plagiarism or failure to
cite the source of a n idea that is developed in the subject's paper. OIG agreed and
concluded there is no substance to the allegation of intellectual theft.
   Regarding allegations (b), misrepresentation of cited references, the scientist
noted that the subject's paper cited many references that had no specific mention of
the term for which they were cited. However, he concluded the citations were
relevant to the work presented in a n otherwise reasonable way to provide
background and comparison to the present work. OIG agreed and concluded that,
although the subject's citation practice, as exemplified by this paper, may not
represent the degree of scholarship the scientific community and NSF expects, the
inaccuracies do not rise to the level of misconduct in science.

   1 (footnote   redacted).


                                           Pg. 1of 2
                     Addendum to Closeout of ~ 9 7 0 1 0 0 0 3 / ~ q ~ 0 ~ 6 ~ ~


   Based on our analysis of the current evidence, this inquiry is closed and no
further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                     Pg. 2 of 2
